COCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Pax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

 

No.

JOHN PIETSCH; ARLAN IRWIN, AS TRUSTEE
FOR THE ALBERT AND GRACE IRWIN TRUST;
WARD COUNTY FARM BUREAU,

A NORTH DAKOTA NON-PROFIT CORPORATION:
WARD COUNTY FARMERS UNION,

A NORTH DAKOTA NON-PROFIT CORPORATION.
Petitioners,

Ve
WARD COUNTY, A POLITICAL SUBDIVISION
OF THE STATE OF NORTH DAKOTA;

THE BOARD OF COUNTY COMMISSIONERS
FOR WARD COUNTY, NORTH DAKOTA,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I-certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8057 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 12th day of August, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY State of Nebraska QO) imek. Chl
A RENEE J. GOSS 9. ,

My Comm. Exp. September 5, 2023
Affiant

 

Notary Public 41176
